AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES

No. 19-337

 

REGENTS OF THE UNIVERSITY
OF MINNESOTA,

Petitioner,
v.
LSI CORPORATION, ET AL.,

Respondents.

STATE OF NEW YORK )
COUNTY OF NEW YORK_ )

I, Marianna Iannotta, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:

I am retained by Counsel of Record for Amici Curiae.

That on the 15" day of October 2019, I served the within Brief of Ten State
Universities and State University Systems as Amici curiae in Support of Petitioner in the
above-captioned matter upon:

Kevin K. Russell

Goldstein and Russell, P.C.

7475 Wisconsin Avenue, Suite 850
Bethesda, MD 20814

(202) 362-0636
krussell@goldsteinrussell.com
Attorneys for Petitioner

 

Mark Simon Davies

Orrick, Herrington & Sutcliffe LLP

Attorneys for Respondents Ericsson Inc. and Telefonaktiebolaget LM Ericsson
Columbia Center

1152 15" Street, NW

Washington. DC 20005

(202) 339-8631

Mark.davies@orrick.com

 
Adam Karl Mortara

Bartlit Beck LLP

Attorneys for Respondents Gilead Sciences, Inc.
54 W. Hubbard Street

Chicago, IL 60654

(773) 750-7154

Adam.mortara@bartlit-beck.com

Kristopher Lane Reed

Kilpatrick Townsend & Stockton LLP

Attorneys for Respondents LSI Corporation and Avago Technologies U.S. Inc.
1400 Wewatta Street, Suite 600

Denver, CO 80202

(303) 571-4000

kreed@kilpatricktownsend.com

By depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail.
Also filing electronically and one unbound copy.

That on the same date as above, | sent to this Court forty copies of the within

Brief of Ten State Universities and State University Systems as Amici curiae in Support of
Petitioner through the United States Postal Service by Express Mail, postage prepaid.

All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.

  
  

Execyted on phis 15" day/f October 2019.

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
‘www.counselpress.com
  
  

orn to 4nd subscribed before me this 15" day of October 2019.

   

Qualified if Kings County
Commission Expires Aug. 31, 2021

#291717

g

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
‘www. counselpress.com
